V

1

£ £

*

CASE NO.

\j

\u':

i

;■' ■ i

i i : ■

Supreme Court, U.S.
FILED

AUG 1 5 2021

SUPREME

COURT

IN

THE

OF

THE

OFFICE OF THE CLERK

UNITED

STATES

U. S. ex rel. ERIC WILLIAM POIRIER,
Petitioner,
vs.
RANDALL R. HEPP - Warden,
UNITED STATES OF AMERICA,
Respondents ) .

PETITION FOR WRIT OF HABEAS CORPUS
PURSUANT TO 28 U.S.C. § 2254(a).
CIRCUIT COURT: BRANCH I., CHIPPEWA COUNTY, WI.
(Name Of Court That Last Ruled On Merits Of Your Case)

Mr. Eric William Poirier #84057
Pro se
Waupun Correctional Institution
P.O. Box 351
Waupun, Wi. 53963

/-

QUESTION(S)—PRESENTED

Should this Court decide what crimes are predicate of
Attempted First Degree Intentional Homicide because the Law is
not settled yet, nor has this Court ruled on Double Jeopardy
as of this date ?

Should Petitioner have been appointed counsel before he was
Sanctioned by both the Wisconsin Court Of Appeals, and the U.S.
Court Of Appeals (7th Cir. Ill.), and Fined because of his indigency ?

r
4

*

LIST OF PARTIES

£J All parties appear in the caption of the case on the cover page.
[fc/f^All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

CIRCUIT COURT BRANCH I
CHIPPEWA COUNTY COURT HOUSE
711 North Bridge Street
Chippewa Falls WI 54726
WISCONSIN COURT OF APPEALS
110 East Main Street, Suite 215
Madison, WI 53701-1688
WISCONSIN SUPREME COURT
110 East Main Street, Suite 215
Madison, WI 53701

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
362 U.S. Courthouse
517 East Wisconsin Avenue
Milwaukee, WI 52302.

UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
219 South Dearborn Street
Chicago, IL 60604

«

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOKED

..

STATEMENT OF THE CASE

3
4-5

QUESTION ONE : SHOULD THIS COURT DECIDE WHAT
CRIMES ARE PREDICATE OF ATTEMPTED FIRST DEGREE
INTENTIONAL HOMICIDE BECAUSE THE LAW IS NOT
SETTLED YET, NOR HAS THIS COURT RULED ON
PREDICATE OFFENSES ?
..............................................

5-24

QUESTION TWO : SHOULD PETITIONER HAVE BEEN , ..
APPOINTED COUNSEL BEFORE HE WAS SANCTIONED BY
BOTH THE WISCONSIN COURT OF APPEALS, AND THE
UNITED STATES COURT OF APPEALS FOR THE SEVENTH
CIRCUIT IN CHICAGO, ILLINOIS ?
........................

24 - 32

REASON FOR GRANTING THE WRIT

32

CONCLUSION

32 ~ 33

INDEX TO APPENDICES
^APPENDIX A. Circuit Court order dated May 21, 2021.
APPENDIX B. Wisconsin Court Of Appeals Sanction.

i.

}
INDEX TO APPENDIES

continued

Appendix C. After Reverse and Remand fron U.S. Court Of Appeals
on April 18, 2006, the District Court decisions that Petitioner
has left because the rest have been destroyed from prison toilets
over flowing.
Appendix D. Sanction fron U.S. Court Of Appeals (7th Cir. Ill).
Appendix E. Informations and Amended fron the Circuit Court.
Appendix F. Memorandum Decision fron Circuit Court dated April 12,
2004.
Appendix G. Prosecutor's denying Criminal Record to Petitioner,
and the Department of Corrections telling him to contact the
court in Chippewa County.
Appendix H. Response from DOC dated November 14, 2019.
Appendix I. Petitioner's letter to the Wisconsin Appellate Division
for appointment of counsel for Direct Appeal,dated January 30,
2005.

Appendixs

Will be provided to this Court when Petitioner
can get the copies because they are 4-on one page, and the print
is too small to read.

ii.

1

TABLE OF AUTHORITIES CITED
FEDERAL CASES:

PAGE NUMBER

Ball v. U.S., (U.S. Va. 1985), 470 U.S. 846

13

Ex Parte Lange, 85 U.S. 163, 21 L.Ed. 872,
1873 U.S. LEXIS 1301, 18 Wall. 163
...........

25 - 27

Graham v. Collins, 506 U.S. 461, 113 S.Ct. 892,
122 L.Ed.2d 260, 1993 U.S. LEXIS 1015
.............

17 - 19

Johnson v. United States, (2015), 135 S.Ct. 2551 ..

29

McCloud v. Deppisch, 409 F.3d 869,
2005 U.S. App. 10048

......................

Raymond v. United States, 933 F.3d 988 ., ...
(8th Cir. 2019)
................................... ...............

16 - 17

30 - 32

Rutledge v. U.S. (U.S. Ill.), 116 S.Ct. 1241,
...............................................................
517 U.S. 292

13

United States v. Addonizio, 442 U.S. 178
(1979)
..................................................................

30

United States v. Qazi, 975 F.3d 989 ,
(9th Cir. 2020)
.......................................

22 - 24

Whalen v. United States, 445 U.S. 684,
100 S.Ct. 1432, 63 L.Ed.2d 715,
1998 U.S. LEXIS 15
...................................

20 - 21

STATE CASES CITED:
State v. Chevez, 175 Wis.2d 366, 498 N.W.2d 887,
1993 Wise. App. LEXIS 309
..........................................
iii.

19

i

TABLE OF AUTHORITIES CITED

continued
PAGE NUMBER

State v. Jackson, 2011 WI App 63, 333 Wis.2d 665,
799 N.W.2d 461, 2011 Wise. App. LEXIS 320 ..........

14

Lease Am. Corp. v. Insurance Co. of N. Am.,
88 Wis.2d 395, 276 N.W.2d 767 (1979)
....

19

State v. Peters, 2002 WI App 243, 258 Wis.2d 148,
653 N.W.2d 300, 2002 Wise. App. LEXIS 1022
....

14

State v. Steele, 2001 WI App 34, 1121,
241 Wis.2d 269,

10 - 11

N.W.2d

State v. Vassos, 218 Wis.2d 330, 579 N.W.2d 35,
1998 Wise. LEXIS 58
................................................

20

FEDERAL STATUTES AND RULES:
28 U.S.C. § 2254(b)(1)

16

28 U.S.C. § 2255

29
30 - 32

18 U.S.C. § 924(c)
F.R.C.P. 60(b)(6)

29

U.S. Const. Amends. V ; XIV

13, 15

U.S. Const. Amend. VI

24

iv.

4

TABLE OF AUTHORITIES CITED

continued
PAGE NUMBER

STATE STATUTES AND RULES:
WIS JI-CRIMINAL 112
Lesser Included Offenses:
Alternative Style #580 Attempt

7

WIS JI-CRIMINAL 1070 Attempted First Degree
Intentional Homicide §§ 939.32, 940.01(l)(a)

7-8

WIS JI-CRIMINAL 1343 Possession Of A Firearm
§ 941.29
................................................................

9

§ 943.23 Operating a Motor Vehicle Without
Owner's Consent, Repeater § 939.63(l)(a)

9-10

WIS JI-CRIMINAL 1424 Burglary § 943.10

10 - 11

WIS JI-CRIMINAL 1225 Aggravated Battery
§ 940.19(5)
....................................................

11 - 12

WIS JI-CRIMINAL 1250 First Degree Reckless Injury
§ 940.23(1)
............................................................ ..

12 - 13

§ 939.63(l)(c) Habitual Offender

28

§ 781.01 Extraordinary Remedy

28

v.

-eP-I-N-I-ONS-BE-tOW

The Circuit Court Denied collateral review on May 21, 2021
without an evidentiary hearing. _ e.g., "Appendix A." After
many attempts Pro se.

The Wisconsin Court Of Appeals Denied Appeal, and SANCTIONED
ON January 31, 2012. This was done without an evidentiary hearing.
e.g. , "Appendix B."

The United States District Court, after Reversing and Remand
from the Court of Appeals dismissed the habeas corpus. Then the
prison toilets over flowed and destroyed all court orders. Then
Petitioner on February 1, 2008, and July27, 2010 tried again,
and this was denied again on November 23, 2010. e.g. "Appendix C."

The U.S. Court Of Appeals (7th Cir. Ill.) After reversing and
remanding Petitioner's case, denied authorization to file a second
or successive petition for habeas corpus, e.g., "Appendix D."
and SANCTIONED Petitioner $500., and until he pays the fine,
he cannot file any further filings.

1.

JURISDICTION
UNITED STATES CONSTITUTION ARTICLE III

Section. 1. The judicial Power of the United States, shall
be vested in one supreme court, and such inferior Courts as
the Congress may from time to time ordain and establish. The
Judges, both of the supreme and inferior Courts, shall hold
their Offices during good Behaviour, and shall, at Times,
receive for their Services, a Compensation, which shall not be
diminished during their Continuance in Office.
28 U.S.C. § 1251 ;

28 U.S.C. § 1257.

(a) The Supreme Court shall have original and exclusive
jurisdiction of all controversies between two or more States.

(2) All controversies between the United States and a
State.

2.

CONSHTUTIONAL AND-STATUTORY_PROVISIONS INVOLVED

U.S. Const. Amend. V. No person shall be held to answer for a
capital, or otherwise infamous crime, unless on a presentment or
indictment of a grand Jury, except in cases arising in land or
naval forces, or in Militia, when in actual service in time of War
or public danger; not shall any person be subject for the same
offense to be twice put in jeopardy of life or limb, nor shall be
compelled in any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use without
just compensation.
U.S. Const. Amend. VI. In all criminal prosecutions, the accused
shall enjoy the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall have been
committed; which district shall have been previously ascertained
by law, and to be informed of the nature and cause of the accusation;
to be confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.
U.S. Const. Amend. XIV., Section 1. All persons born or naturalized
in the United States and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they reside.
No State shall make or enforce any law which shall abridge the
priviliges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny any person within its jurisdiction
the equal protection of the laws.

3.

STATEMENT OF THE CASE
Petitioner, has been diligently pursuing relief for the proper
remedy-at-law for the last 17-years now with no relief from the
Courts.

After a 2-day jury trial that ended on April 22, 2004, he

was found guilty of violating 18-Wis. Stats, that occurred at the
same time, place, and persons for: (1)- Attempted First Degree
Intentional Homicide; Repeater, (No person died in this case),
(2)- Felon In Possession Of A Firearm; Repeater (No gun was found
to prove Element #1: Actual physical possession, and it's not
even known what caliber the alleged gun is), (3)- Take And Drive
A Vehicle Without Owner's Consent; Repeater (The jury reduced
this charge to a Misdemeanor but the charge is having a recidivism
effect that affects the sentence imposed), (4)- Burglary To A
Building Or Dwelling; Repeater (Nothing was taken from the Burglary,
and the Jury Instruction included,the added wording: First Degree
Intentional Homicide and delivery of Cocaine or Marijuana are
felonies you can consider. Nobody died, no drugs of any kind were
found), (5)- Aggravated Battery; Repeater, (Has to be an included
crime of Count 1.) and finally, (6)- First Degree Reckless Injury;
Repeater (Has to be the same as Count l.,All the evidence adduced
, was used to convict on the other charges).
Petitioner , was arrested on January 22, 2004, and placed in.
The Chippewa County Jail. On January 26, 2004, he appeared Video
Conference, without counsel, and asked by the Judge. _Id. at (1-2604,Ti.Tr.Pp. 2 line 6-10), " The Court: Are you going to apply
for Public Defender ? The Defendant: No. I would request that
the court appoint Robert McKinley." e.g. " Appendix ___ ."
Defendant knew from past that the State Public Defender's do
NOT file the appropriate Motions, and waive jurisdictional challenges.
Petitioner's

next appearence in Court was on January 27, 2004,

and he was represented by First Assistant Public Defender- Susan
T. Falch, for an Initial Appearence. The Attorney tells the Court:
Id. at (1-27-04,Ti.Tr.Pp. 2 line 509), "Defense attorney Susan M. Meade
4.

is in Sawyer County this afternoon. She asked me to fill in for her."
e.g., " Appendix

." All Trial Transcripts are attached.

Petitioner on February 2, 2004, meets for the first time, _
another S.P.D. appointed counsel - Susan M.. Meade for Preliminary
Hearing, and was permitted to read the Information for the first
time. The Court found probable cause, and bound him over for
trial. Petitioner thought victim was dead, e.g., " Appendix ___ ."
Petitioner on February 17, 2004, is taken into the Circuit
Court for Arraignment, and is handed a New Information that charges
6-counts, and his Attorney enters a plea of not guilty giving
the Court jurisdiction, e.g., " Appendix ___ ."
Petitioner on April 21-22, 2004, had a jury trial, and he was
found Guilty on all 6-counts. Petitioner was Sentencedon October 28,
2004, and received 6-independent sentences totaling 60-years. The
Sentences were ran Concurrently, and are having a grave collateral
consequence upon Petitioner, and the fine on each count was imposed
also, and he was Pro se at sentencing.
Petitioner on December 03, 2004, is sent to the Dodge Correctional
Correctional Institution located in Waupun WI. After being told he
could remain in the Chippewa County Jail until his Pro se - PostConviction Motion Hearing so he could talk with his potential witnesses.
e.g.
" Appendix
Petitioner, is sent to another County Jail, in Juneau, Wi., then
is transported to another County Jail in Langlade County in Antigo,
WI. Then is brought to the Chippewa County Jail in.Chippewa Falls,
WI. for Pro se - Postconviction relief hearing on January 28,
2005. That was denied, and he is transported back to Langlade
County Jail. Then on April 4, 2005, is transported to the Waupun
Correctional Institution.
PETITIONER PRAYS THIS COURT WILL GRANT HIS HABEAS CORPUS BECAUSE
HE HAS NO OTHER REMEDY AT LAW.
5.

:-------- SHOULD—THIS—COURT—DECIDE-WHAT—CRIMES-ARE-PREDICATE-OF__________
ATTEMPTED FIRST DEGREE INTENTIONAL HOMICIDE BECAUSE THE LAW IS NOT
SETTLED YET, NOR HAS THIS COURT RULED ON PREDICATE OFFENSES ?

Petitioner claims, the State Of Wisconsin was being bias/
prejudicial when they instructed the jury on April 21, 2004 because
Petitioner had been Acquitted 3-times in that County before.
The judge in his opening jury instruction stated. " As I indicated
before, there are six charges against Mr. Poirier. I'm going to
basically, give you the elements of the offense. Later, at the end
of the trial, I will give you the complete instruction defining .
some of the terms, but what you should pay be paying attention
to. Count One is attempted first-degree intentional homicide.
Attempted first-degree intentional homicide, as defined in the
State law, is committed by one who, with intent to commit first-.,
degree:.intentional homicide, does acts toward the commission of that
crime which demonstrate unequivocally, under all the circumstances,
that he had formed that intent and would have commit the crime
except for the intervention of another person or some other extraneous
factor. Then the court defines the two elements were present:
1. The first element of attempted first-degree intentional
homicide requires that the defendant intended to commit the crime
of first-degree intentional homicide.
The crime of first-degree intentional homicide is committed
by one who causes the death of another human being.
2. The second element of attempted first-degree intentional
homicide requires that the defendant did acts toward the commission
of the crime of first-degree intentional homicide which demonstrates
unequivocally, under all the circumstances, that the defendant
intended to and would have committed the crime of first-degree
intentional homicide except for the intervention of another person
or some other extraneous factor.

6.

■Pet-i-t-ioner—cl-a-ims-,—that—WI-S-J-I-CRIMINAL—1-1-2 A—LESSER—INCLUDED-----

OFFENSE: ALTERNATIVE STYLE should have been given because the
other jury instructions had fill in blanks just as #580 - Attempt.
Attempt the Statutory Definition of the Crime:
The crime of attempted (name intended crime) as defined in
§ 939.32 and § ___ 1 of the Criminal Code of Wisconsin, is
committed by one who, with intent to commit (name intended crime),
does acts toward the commission of that crime which demonstrate
unequivocally, under all the circumstances, that he or she had
formed that intent and would have commit the crime except for the
intervention of another person or some other extraneous factor.
Count One:
Petitioner claims, WIS JI-CRIMINAL 1070 ATTEMPTED FIRST DEGREE
INTENTIONAL HOMICIDE - §§ 939.32, 940.0l(1)(a), is committed
by one who, with intent to commit first degree intentional homicide,
does acts toward the commission of the crime which demonstrate
unequivocally, under all the circumstances, that he or she had
formed that intent and would commit the crime except for the
intervention of another person or some other extraneous factor.
Elements of the crime that State must prove:
1. Defendant intended to kill (name of victim).
"Intent to kill" means that defendant had the mental purpose
to take the life of another human being or was aware that (his)
conduct was practically certain to cause the death of another
human being.
2. Defendant did acts toward the commission of the crime of
(name intended crime) which demonstrate unequivocally, under
all of the circumstances, that the defendant intended to kill and
would have killed (name of victim) except for the intervention
of another person or some extraneous factor.
Meaning of " Unequivocally "
Means that no other inference or conclusion can reasonably
and fairly be drawn for the defendant's acts, under the circumstances.
Meaning of " another person "
Means anyone but the defendant and may include the intended
victim.
Meaning of " Extraneous Factor "
Is something outside the knowledge of the defendant or outside
the defendant's control.
When May Intent Exist ?
While the law requires that the defendant acted with intent
to kill, it does not require that intent existed for a particular
length of time before the act is committed. The act need not be
7.

brooded over, considered^ or reflected upon for a week"; a~day~,
and hour, or even for a minute. There need not be any appreaciable
time between the formation of the intent and the act. The intent
to kill may be formed at any time before the act, including the
instance before the act, and must continue to exist at the time
of the act.
Deciding About Intent
You cannot look into a person's mind to find intent. Intent
to kill must be found, if found at all, from the defendant's acts,
words, and statements, if any, and from all the facts and circumstances
in this case bearing upon intent.
Intent And Motive
Intent should not be confused with motive. While proof of
intent is necessary to convict, proof of motive is not.
"Motive" refers to a person's reason for doing something. While
motive may be shown as a circumstance to aid in establishing the
guilt of the defendant, the State is not required to prove motive
on the part of the defendant in order to convict. Evidence of motive
does not by itself establish guilt. You should give it the weight
you believe it deserves under all the circumstances.
Jury's Decision
If you are satisfied beyond a reasonable doubt that the
defendant intended to kill (name of victim) and the defendant's
acts demonstrate unequivocally that the defendant intended to
kill and would have killed (name of victim) except for the intervention
of another personor some other extraneous factor, you should
find the defendant guilty of attempted first degree intentional
homicide.
If you are not so satisfied, you must find the defendant
not guilty.
Petitioner states, " This has to be the controlling count
because it carries a 60-year sentence. "
Furthermore count 2, has to be an included crime because
§ 941.29 Felon In Possession Of A Firearm is included in Count
1, because the Victim testified at Jury Trial. _Id. at (4-21-04,
Ti.Tr.Pp. 134 line 5-8), " Prosecutor's Question. Where was Mr. Poirier
at this time ? A: When I backed into the hallway, he was standing
in the hallway and at that point I felt something on my head and
I looked to my left and he stood there with a revolver and had
it right at my head. (Pp. 135 line 10-13) Q: The what happened ?
A: Exploded - the gun exploded and I went to the boards. I knew
right then I was shot. I fell to the ground."

8.

--------C ount—Twer:---------------------------------------------------------------------------------------------Petitioner claims, WIS JI-CRIMINAL 1343 POSSESSION OF A FIREARM § 941.29, is committed by a person who possesses a firearm if that
person has been convicted of a felony.
Elements of the Crime that the State Must Prove
1. Defendant possessed a firearm.
2
"Firearm" means a weapon which acts by force of gunpowder.
[it is not necessary that the firearm was loaded or capable of
being fired.]3
"Possess" means that the defendant knowingly had actual
physical control of the firearm.5
2. The defendant had been convicted of a felony before January 16,
2004.
The parties have agreed that the defendant was convicted of
a felony before January 16, 2004 and you must accept this as conclusively
proven.
Petitioner states, " No gun was found to prove element #1. And
since his trial attorney agreed to the sitpulation he was already
half guilty of this Count. Plus the fact that another $70.00 Court
Cost was added, and because this charge carries less prison time
makes it a lesser crime than Count 1. "
Also in the COMMENT:
8. 112. The fact of felon status may still be revealed; it
is the nature of the felony that is not to be disclosed. State v.
Nicholson, 160 Wis.2d 803,804, 476 N.E.2d 139 (Ct. App. 1991) care
must be taken where a stipulation purports to remove an element
from the jury's consideration. A personal jury waiver may be , required. See State v. Villarreal, 153 Wis.2d 323, 450 N.W.2d 519
(Ct. App. 1989), discussed in the COMMENT to WIS JI-CRIMINAL 990.
Partial jury waivers are discussed in SM-21 WAIVER OF JURY.
8. 114. Trial courts may wish to inquire whether stipulation
has been considered. A defense counsel's failure to consider a
stipulation that would have made other crime evidence inadmissible
has been found to be ineffective assistance of counsel requiring
reversal and retrial. State v. Dekeyser, 221 Wis.2d 435, 585 N.W.
2d 668 (Ct. App. 1998).
Count Three:
Petitioner claims, § 943.23 OPERATING A MOTOR VEHICLE WITHOUT
OWNER'S CONSENT, REPEATER was reduced by the Jury to a Misdemeanor
conviction, and included a $50.00 assessment Fee. This was also
used to prejudice his case because that was listed on the Information,
and that went to the jury room as an exhibit. That stated Petitioner,
9.

‘ ,,

was convicted of the same charge in Rusk County. Petitioner'
was being punished again for a crime that he had already completed
the sentence on. Plus, the fact the jury had to think he was
a bad man because he's charged with the crime again here.
Count Four:
BURGLARY WITH INTENT
Petitioner claims, WIS JI-CRIMINAL 1424
TO COMMIT A FELONY 1 - § 943.10(1), Wis. Stats, is committed by
one who intentionally enters a building 2 without the consent of
the person in lawful possession and with intent to commit a felony
therein.
In the COMMENT
1. This instruction is drafted for burglary with the "intent
to commit a felony." If "intent to steal" is charged, see WIS
JI-CRIMINAL 1421. For burglary offenses committed "while armed"
or under aggravating circumstances as prohibited by §943.10(2),
see WIS JI-CRIMINAL 142A, 1425B, and 1425C.
" Felon in possession of a firearm " in violation of § 941.29 is
a crime against persons or property and case be the basis for
the intent to commit a felony element of burglary. See State v.
Steele, 2001 WI App 34, 1121, 241 Wis.2d 269,
N.W.2d
9. Burglary, as defined in § 943.10(1), is punished as a
class C felony. The penalty increases to a class B felony if
a burglary is is committed under any of the circumstances defined
in subsec. (2). The Committee recomends handling these penaltyincreasing factors by submitting and additional question after the
basic burglary instruction is given. Instructions are provided for
three of the four factors inentified in Subsec. (2): while armed
(see WIS JI-CRIMINAL 1425A) ; while unarmed, but the person arms
himself or herself while in the enclosure (see WIS JI-CRIMINAL
1425B); while in the enclosure, the person uses explosives to
open a depository (there is no instruction for this alternative);
and, while in the enclosure, the person commits a battery upon a
person lawfully therein (see WIS JI-CRIMINAL 1425C).
Petitioner states, " Because in his Jury Instructions in ?vi._
Elements The State Must Prove contained in element #4:
10.

first degree intenti o n a T~homi'crde—and-de1-i-ver-y—of—c ocaine_or_____
marijuana are felonies you can consider made this count analogous
to the other Five Counts. The problem with this instruction is
that, Nobody died, no drugs of any kind were found, no gun. And,
because this charge carries less time makes it a lesser-included
offense. The Legislature did not intend multiple punishments
to arise all out of the same overt act.
Count Five :
Petitioner claims, WIS JI-CRIMINAL 1225
AGGRAVATED BATTERY
WITH INTENT TO CAUSE GREAT BODILY HARM - § 940.19(5), is committed
by one who causes great bodily harm to another by an act done with
intent to cause great bodily harm to that person or another.
Elements of the Crime the State Must Prove
1. Defendant caused great bodily harm to (name of victim).
"Means defendant's act was a substantial factor in producing the
great bodily harm.l
2
"great bodily harm" means serious bodily injury.
[injury which
creates a substantial risk of death, or which causes serious
permanent disfigurement, or which causes a permanent or protracted
loss or imparment of the function of any bodily member or organ,
or other serious bodily injury is great bodily harm.]
2. Defendant intended to cause great bodily harm to [name of
person] [another person]. 3
"Intent to cause great bodily harm" means that the defendant had
the mental purpose to cause the great bodily harm to another
human being or was aware that (his) conduct was practically certain
to cause great bodily harm to another human being.4
Deciding About Intent
You cannot look into a persons minde to find intent. Intent
must be found, if found at all, from the defendant's acts, words,
and statements, if any, and from all the facts and circumstances
in this case bearing upon intent.5
In the COMMENT
H3. Subsection (5) of § 940.19 was amended by 2001 Wisconsin
Act 109 (effective date: February 1, 2003) to delete intent to
cause "substantial bodily harm." The subsection now prohibits
causing great bodily harm with intent to cause great bodily harm.
114. 1993 Wisconsin Act 441 amended subsection (2m) of
11.

of § 939.66 to provide t h a t”a-"crTme—wftrch—rs~a-less—s er i- o us------------- -—
or equally serious type of battery than the one charged" is a
lesser included offense, (emphasis added to highlight the 1994 change.)
as a class E felony, aggravated battery is the most serious type
of battery. Thus, all other types of battery are lesser included
offenses.
Petitioner states, " This has to be a lesser-included crime
of Count 1 : AFDIH; Repeater also because all the facts were
considered to convict on this charge. This Count was also used
to enhance his sentence, and included anothe $70.00 assessment
Cost. It would be utterely impossible to commit the statutory
elements of Counts 1, 2, 4, and 6 without committing this offense,
and this count carries less prison time making that a lesser
included offense also. "
Count Six :
FIRST DEGREE RECKLESS
Petitioner claims, WIS JI-CRIMINAL 1250
INJURY - § 940.23(1), Wis. Stats., is committed by one who recklessly
causes great bodily harm to another human being under circumstances
that show utter disregard for human life.
Elements the State Must Prove
1. Defendant caused great bodily harm to (name of victim).
"Cause" means defendant's act was a substantial factor in producing
great bodily harm.l
2
" Great bodily harm " means serious bodily injury. [injury which
creates a substantial risk of death, or which causes serious
permanent disfigurement, or which causes a permanent or protracted
loss or impairment of the function of any bodily member or organ,
or other serious bodily injury is great bodily harm.]
2. Defendant caused great bodily harm by criminal reckless
conduct.
o
" Criminal reckless conduct " means"5 * the conduct created a
risk of death or great bodily harm to another person; and * the
risk of death or great bodily harm was unreasonable and substantial;
and * the defendant was aware that his conduct created the unreasonable
and substantial rish of death or great bodily harm.4
3. The circumstances of the defendant's conduct showed utter
disregard 5 for human life.
In determining whether the conduct showed utter disregard for
human life, you should consider these factors: what the defendant
12.

~~"was doing; why the del:endan't-was -en gagi-ng—i-n—t-ha-t-conduct;_ho w____
dangerous the conduct was; how obvious the danger was; whether the
conduct showed any regard for life;6 and, all other facts and
circumstances relating to the conduct.
Furthermore in th COMMENT
The Committee concluded that no further definition of the phrase
"utter disregard" was necessary. The jury should be able to give
the phrase a common sense meaning in determining whether the conduct
is such that it amounts to aggravated reckless homicide offense.
A phrase with essentially the same meaning is used in the Model
Penal Code. Section 2.02(l)(b) provides that criminal homicide
constitutes murder when it " is committed recklessly under circum­
stances manifesting extreme indifference to the value of human life."
The Commentary to § 2.02(l)(b) Explains that whether conduct demonstrates
" extreme indifference " "is not a question ... that can be further
clarified." Attempts to explain the term by reference to common
law concepts, say the Commentary, suffer from lack of clarity,
and " extreme indifference " is simpler and more direct than other
attempts to reformulate the common law. Note to § 939.24(3), 1987
Senate Bill 191.
Petitioner states, " This Count has to be a down grade of
the Counts 1, 2, 4, and 5 also because it carries less Prison
time, and it would be inpossible for the Jury to acquit on the
other charges. Plus the fact a $70.00 assessment charge was included
on this charge too.
Petitioner claims, he was convicted of violating 19 Wis.
Stats., and received 6 Sentences for the same overt act. This
is a violation of his U.S. Const Amends. V., and XIV. Petitioner
demands redress.
Petitioner claims, this would be contrary to Well established
Federal law as determined by the Supreme Court Of The United
States in Ball v. U.S., (U.S. Va. 1985), 470 U.S. 846; Rutledge v
U.S., (U.S. Ill.), 116 S.Ct. 1241, 517 U.S. 292. Because the
lower courts did not rule on this issue, has resulted in a fundamental
miscarriage of justice.

13.

Petit loner claims, when-the-Cix cu i-t—Court—a-1-1 owed—that------------all the charges to be brought at one time it considered the wrong
standard of law. For support of this claim, he relies for a starting
point found at 2002 WI App 243, 258 Wis.2d 148, 653 N.W.2d 300,
2002 Wise. App. LEXIS 1022, State v. Peters, (Emphasis in Part):
[*P22] When applying the "some" evidence standard, the trial court
must determine whether a reasonable construction of the evidence
will support the defendant's theory "viewed in the most favorable
light it will 'reasonably admit from the standpoint of the accused. I ft
Id. at P113 (citation omitted). If the evidence supports the defendant's
theory and if the evidence viewed most favorably to the defendant
would allow a jury to conclude that the State did not disprove the
self-defense theory beyond a reasonable doubt, the factual basis
for the defense theory has been satisfied and the court should
submit the jury instruction. See id. at PP5, 115.

[*P23] HN7 The standard for reasonableness is "what a person
of ordinary intelligence and prudence would have believed in the
position of the defendant under the [**161] circumstances existing
at the time of the alleged offense." Wis JI-CRIMINAL 1014 (1994).
The reasonableness of "that belief must be determined from the
standpoint of the defendant at the time of his acts." Id. In applying
the reasonableness standard, the court has recognized the relevance
of some personal history evidence in the context of homicides in
battered spouse situations. State v. Hampton, 207 Wis.2d 367,382,
558 N.W.2d 884 (Ct. App. 1996)(citing State v. Richardson, 189
Wis.2d 418,426, 525 N.W.2d 378 (Ct. App. 1994)). 3
Petitioner states, " Because the law is unsettled, this case
presents a question of law that should be settled by this Court
because it was not harmless error to present all of these charges
that resulted in a longer sentence. "
For support of this claim,
as a starting point the language found at 2011 WI App 63, 333 Wis.
2d 665, 799 N.W.2d 461, 2011 Wise. App. LEXIS 320, State v. Jackson,
(Emphasis in Part): [*P10] When the law is unsettled, the failure
to raise an issue is objectively reasonable and therefore not
14.

deficient performance. See State v. Maloney, 2005 WI~74, '1123,
281 Wis.2d 595, 698 N.W.2d 583. When case law can be reasonably
analized in two different ways, then the law is not settled. State
v. McMahon, 186 Wis. 2d 68, 84, 519 N.W. 2d 621 (Ct. App. 1994).
Here, the State submits that the law as to the elements of recklessly
endangering safety while armed was unsettled, and therefore Jackson's
trial counsel's performance was not deficient. We agree, but for
different reasons than asserted by the State-- as we shall soon
discuss.
[*P12] Recklessly endangering safety is a lesser included offense
of attempted first-degree intentional homicide Hawthorne v. State,
99 Wis.2d 673, 681-82, 299 N.W.2d 866 (1981)(endangering safety
by conduct regardless of life is a lesser included offense of
attempted first-degree intentional homicide); State v. Weeks, 165
Wis. 2d 200, 205-06 & n.5, 477 N.W. 2d 642 (Ct. App. 1991)(the
current offense of recklessly endangering safety is analogous
to the older endangering safety by conduct regardless of life).
However, the parties could point us to no case law definitively ;
stating that the "while armed" penalty enhancer always constitutes
an element for the purpose of determining whether something is a
lesser included offense. In State v. Carrington, 130 Wis. 2d 212,
221-22, 386 N.W.2d 512 (Ct. App. 1986)(Carrington I), rev'd on
other grounds by Carrington II, 134 Wis. 2d at 262, 268-69, we
did hold that "while armed" was not only a penalty enhancer, it
was also an element of the offense for purposes of the elements only
test) .
Petitioner states, " Because the jury found him guilty on the
Felon In Possession Of A Firearm this charge prejudiced his case
because the Jury had to think he was a bad person because of
all the charges against him, and he must be guilty of something
or other wise he wouldn't be here. "
This is in violation of
the U.S. Const. Amends. V. and XIV.

15.

Petitioner claims, for a starting point that-EKe~BTockburger
test is only a starting point to claims of multiple punishments
in a single proceeding, he relies on the language found at 409
F.3d 869, 2005 U.S. App. LEXIS 10048, McCloud v. Deppisch, (Emphasis
in Part): HN8 The state court's use of the Supreme Court's Blockburger
test does not give us a toehold into its examination of legislative
intent. See 28 U.S.C. § 2254(b)(1)(federal court may grant habeas
corpus petition where state court's adjudication of claim "resulted
in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by
the Supreme Court of the United States"). HN9 Although the Blockburger
test has "deep historical roots" in the Supreme Court's double
jeopardy precedents, United States v. Dixon, 509 U.S. 688,704, 113
S.Ct. 2849,2860, 125 L.Ed.2d 556 (1993), and both federal and state
courts use the test to determine whether two offenses are the "same"
for purposes of the double jeopardy analysis, it is not a constitutional
test in and of itself. Rather, it is simply a means of evaluating
legislative intent. Albernaz v. United States, 450 U.S. 333,340,
101 S.Ct. 1137,1143, 67 L.Ed.2d 275 (1981); [**18] Whalen v. United
States, 445 U.S. 684,691, 100 S.Ct. 1432,1437, 63 L.Ed.2d 715 (1980).
For the matter, Blockburger only represents the starting point in
this inquiry: when application of the Blockburger test reveals that
two offenses are essentially the same, a presumption arises that
the legislature did not intend for them to be punished cumulatively,
see Rutledge, 517 U.S. at 297, 116 S.Ct. at 1245; United States v.
McCarter, supra, 406 F.3d 460, 2005 WL 1022993, at *2; Davison,
666 N.W.2d at 13; when the test yields the opposite result, a contrary
presumption arises, see Albernaz, 450 U.S. at 340, 101 S.Ct. at 1143;
Davison, 666 N.W.2d at 13. Ultimately, either presumption can be
overcome with evidence of [*876] legislative intent that Blockburger's
"same elements" test does not take into account. See Johnson, 467
U.S. at 499 n.8, 104 S.Ct. at 2541 n.8 ("As should be evident
from our decision in Missouri v. Hunter, ... the Blockburger
test does not necessarily control the inquire into the intent
16.

\

of the state legislature.); Hunter, 459 U.S. at 366-69, 103 S.Ct.
at 678-79; ['**19] Davison, 666 N.W.2d at 13; see also McCarter,
406 F.3d 460, 2005 WL 1022993, at *3 ("legislative history which
clearly indicates an intention regarding whether to permit multiple
punishments is entitled to weight"). Thus, rather than suggesting
that the Wisconsin court was engaging in a constitutional analysis
when it employed the Blockburger test, the use of that test simply
confirms that the court was assessing legislative intent and deciding
a question of state law. True enough, the test is a federally-derived
analytical tool, but the fact does not give a federal habeas court
the authority to police a state court's evaluation of the state
legislature's intent.
Petitioner states, " The State Laws results in some fundamental
unfairness, and does run afoul of the Double Jeopardy Clause. "
Petitioner claims, this Court should consider making a
" new rule " if it breaks new ground, imposes a new obligation
on the states for multiple sentences out of the same overt acts
because the UNITED STATES SUPREME COURT has not been forced to
rule on predicated offenses of Blockburger yet. For support
of this claim, he relies on a case for a starting point, is the
language found at 506 U.S. 461, 113 S.Ct. 892, 122 L.Ed.2d 260,
1993 U.S. LEXIS 1015, Graham v. Collins, (Emphasis in Part): II
A [***LEdHR2A0 LEdHRC^ Because this case is before us on Graham's
petition for a writ of federal habeas corpus, "we must determine
as a threshold matter, whether granting him the relief he seeks
would create a 'new rule I If of constitutional law. Penry v. [*467]
Lynaugh, supra, at 313; see also Teague v. Lane, 489 U.S. at 301
(plurality opinion). "Under Teague, new rules will not be applied
or anounced in cases on collateral review unless they fall into
one of two exceptions." Penry, supra, at 313. This restriction on
our review applies to capital cases as it does to those not involving
the death penalty. 492 U.S. at 314; Stringer v. Black, 503 U.S.
. 227, 111 L. Ed. 2d 1130 (1992); Sawyer v. Smith, 497 U.S. 227,
17.

Ill L. Ed. 2d 193, 110 S.Ct. 2822 (1990); Saffle v. Parks, 494
U.S. 484, 108 L. Ed. 2d 415, 110 S.Ct. 1257, (1990); Butler v.
McKellar, 494 U.S. 407, 108 L. Ed. 2d 347, 110 S.Ct. 1212 (1990).
LEdHR2A] LEdHR(2A) Having decided that
[***LEHR1A] LEdHR(lA) t
the relief Graham seeks would require announcement of a new rule
under Teague, we next consider whether that rule nonetheless would
fall within one of the two exceptions recognized in Teague to
the "new rule" principle, HN4 The first exception permits the
retroactive application of a new rule if the rule places a class
of private conduct beyond the power of the State to proscribe, see
Teague, 489 U.S. at 311, or addresses 'substantive categorical
guarantee accorded by the Constitution,' such as a rule 'prohibiting
a certain category of punishment for a class of defendants because
of their status or offense. I If Saffle v. Parks, supra, at 494 (quoting
Penry, 492 U.S. at 329, 330). Plainly, this exception has no .
application here because the rule Graham seeks "would neither
discriminalize a class of conduct nor prohibit the imposition
of capital punishment on a particular class of persons." 494
U.S. at 495.
Petitioner states, " This should apply to him because he did
not kill any persson." And
LEdHR2A] LEdHR(2A) HN5 The
[8478] [***LEdHRlA] LEdHR(lA) [
second exception permits federal courts on collateral review
to announce ft t watershed rules of criminal procedure* implicating
the fundamental fairness and accuracy of the criminal proceeding."
Ibid. Whatever the precise scope of this exception, it is clearly
meant to apply only to a small core of rules requiring "observance
of those procedures that ... are "inplicit in the concept of
ordered liberty. tf f tl Teague, supra, at 311 (quoting Mackey v.
401 U.S. 667, 693, 28 L.Ed.2d 404, 91 S.Ct. 1160
United States,
(l971)(Harlan J., concurring in judgments in part and dissenting
in part)(in turn quoting Palko v. Connecticut, [***277] 302 U.S.
319, 325, 82 L.Ed.2d 288, 58 S.Ct. 149 (1937))); see also
AAA

18.

Butler v. McKellar, supra7 it—4-1'6'j—As—the_plurality cautioned in
accurate determination of innocence or guilt, we believe it unlikely
that many such components of basic due process have yet to emerge."
489 U.S. at 313. We do not believe that denying Graham special
jury instructions concerning his mitigating evidence of youth,
family background, and positive character traits "seriously dimish[ed]
the likelyhood of obtaining an accurate determination" in his
sentencing proceeding. See Butler v. McKellar, supra, at 416.
Accordingly, we find the second Teague exception to be inapplicable
as well.
Petitioner states, " But this is applicable to him because
all of his statutes were based of the first charge, and there
was no way he could have been found not guilty by the jury without
considering the other counts."
< Furthermore, Petitioner claims, the jury had to think he
was a bad man. For support of this claim he relies on the language
as a starting point found at 88 Wis.2d 395, 276 N.W.2d 767 (1979)
Lease Am. Corp. v. Insurance Co. of N. Am. In (this case the'
danger of unfair prejudice was.the jurors would5fc>fe so influenced^
by the other acts evidence that they would likely convict the
defendant of the other acts evidence showed him to be a bad man (FN19).
Petitioner states, " The jury had no choice but to convict
him on all counts because of the way the Court framed the jury
instructions. "
Petitioner claims, also, ambiguity can be created by all
the counts he was charged with. For support of this claim as
a starting point he uses the lanaguage found at 175 Wis.2d 366,
498 N.W.2d 887, 1993 Wise. App. LEXIS 309, State v. Chevez,
(Emphasis in Part): HN2: Ambiguity may be created by the interaction
of separate statutes as well as the interaction of words and structures
of a single statute. State v. Kenyon, 85 Wis.2d 36,49, 270 N.W.2d
160,166, (1978).
Petitioner states, " That is what happened
in the case at hand."
19.

Pet Tti'oner—cTa-ims.,-_the_Legislature has yet to act on
multiple prosecutions. For a starting point, he relies on the"Languagefound at 218 Wis.2d 330, 579 N.W.2d 35, 1998 Wise. LEXIS 58,
State v. Vassos, (Emphasis in,Part): P38. As I have indicated,
the majority's decision today comports with the current interpretation
of the federal and state double jeopardy protections. The Blockburger
"same elements" test is simple and easily applied. Yet it is
inadequate. The simple formula seems to evade constitutional protections.
Moreover, even though the legislature has acknowledged the problems
with the "same elements" test in the framework of multiple punishments
[***26] cases, its response is incomplete. The legislature has yet
to act in relation to multiple prosecutions. This inaction seems
directly contrary to the purposes of the multiple protections component
of the Double Jeopardy Clause. Petitioner's has had violations of
his U.S. Const. Amends. V. and XIV.
Furthermore, the SUPREME COURT OF THE UNITED STATES has not
been forced to rule on the predicate offenses of the Blockburger
test. For support of this claim, he relies on the language found
at 445 U.S. 684, 100 S.Ct. 1432, 63 L.Ed.2d 715, 1998 U.S. LEXIS
15, Whalen v. United States, (Emphasis in Part): ['***736] Because
this Court has never been forced to apply the Blockburger in the
context of the component and predicate offenses, ^ ['*711] we
have not [**1448] had to decide whether Blockburger should be
applied abstractly to the statutes in question or specifically to
the indictment as framed in a particular case. Our past decisions
seem to have assumed, however, the Blockburger stands or falls
on the wording of the statutes alone. Thus, in Blockburger itself
the Court stated, " the applicable rule is that where the same
act or transaction constitutes a violation of two distinct statutory
provisions, the test to be applied to whether there are two offenses
or only one, is whether each provision requires proof of a fact
which the other does not." 284 U.S., at 304 (emphasis in part):
More recently, we framed the test as whether I ff each statute
requires proof of an additional fact which the other does not . * • t ft
20.

* f

Brown v. Ohio, supra, at 166, quoting Morey v. CommonwealTh";---------108 Mass. 433,434 (I871)(emphasis added). See also Iannelli v.
United States, 420 U.S., at 785, n.17 ([T] court's application
of the [Blockburger] test focuses on the statutory elements of
the offense"); M. Friedland, Double Jeopardy 212-213 (1969)(noting
the two possible interpretations and point out that "the word
'provision' is specifically ['***737] used in the test " as stated
in Blockburger). Moreover, because the Blockburger test is simply
an attempt to determine legislature intent, it seems more natural
to apply it to the language drafted by legislature than to the
wording of a particular indictment.
Secondly, the Court asserts that "to the extent that ... the
matter is not [**1449] entirely free of doubt, the doubt must be
resolved [*713] in favor of lenity." Ante, at 694. This asseration
I would suggest, forms the real foundation of the Court's decision.
Finding no indication of the legislative history whether Congress
intended cumulative punishments, and applying Blockburger with
insolubly ambiguous results, the Court simply resolves its doubts
favor of the petitioner and concludes that the rape committed
by the petitioner must merge into his conviction for the felony
murder. In doing so, the court neglects the one source that should
have been the starting point for the entire [***738] analysis:
the lower court's construction of the relevent statutes.
Petitioner states, " This is an exceptional case because he
was charged with violating l^Wis. Stats, all arising out of the
same overt act and received cumulative sentences." This is in
violation of his U.S. Const. Amends. V. and XIV. Petitioner demands
redress.
Petitioner claims, the Prosecutor, Roy Gay was so vindictive
towards the Petitioner, he even charged first degree intentional
homicide. e.g. , " Appendix
"
21.

Petitioner

claims, the Court Of Appeals can review de novo

the Circuit Court's harmless-error sTarfdar d~on~whether—the—omission
For support of this argument,
of having 6-charges prejudiced him.
as a starting point, he relies on 975 F.3d 989, United States v.
Qazi, (Emphasis in Part): II. The Du Bo rule [2] If a defendant
challenges an indictment before trial and, on de novo appellate
review, we may determine the indictment omitted an essential element,
Du Bo requires automatic dismissal regardless of whether the
omission prejudiced the defendant. 186 F.3d at 1179. Although Du Bo's
automatice-dismissal rule conflicts with the harmless-error standard
adopted by several other circuits, it remains the law in this
circuit. See United States v. Omer, 429 F.3d 835 (9th Cir. 2005)
(Graber, J., dissenting from

denial of rehearing en banc).

Indeed, following this rule, we have dismissed an indictment and
reversed the district court even when the missing element was proven
beyond a reasonable doubt at trial. See, e.g., United States v.
Carbajal, 42 F. App'x 954, 956 (9th Cir. 2002)(Silverman, J.,
concurring).
[3] [4] Whether an indictment challenge triggers Du Bo's de novo

1. The supreme Court granted certiorari in United States v. Pesendiz-Ponce,
549 U.S. 102, 127 S.Ct. 782, 166 L.Ed.2d 591 (2007), to resolve this split
but decided the case on other grounds. In dissent, Justice Scalia noted that he
would have to agree with the Ninth Circuit and held that an indictment lacking
an essential element is structual error. See id. at 116-117, 127 S.Ct. 782 (Scalia,
J., dissenting). The circuits that disagree with our view have held that Neder
v. United States, 527 U.S. 1, 119 S.Ct. 1827, 144 L.Ed.2d 35 (1999); Apprendi v.
New Jersey, 530 U.S. 466, 120 S.Ct. 2348, 147 L.Ed.2d 435 (2000); and United
States v. Cotton, 535 U.S. 625, 122 S.Ct. 1781, 152 L.Ed.2d 860 (2002), under­
mind the rationale for automatic dismissal. See, e.g., United States v. Robinson,
367 F.3d 278, 283-86 (5th Cir. 2004). We have limited Du Bo's reach after Cotton.
See, United States v. Salazar-Lopez, 506 F.3d 748, 752 (9th Cir. 2007). For
example, we apply harmless-error review when an indictment omitts an Apprendielement even when it was timely challenged. See id.; see also United States v.
Kaplan, 836 F.3d 1199, 1216 (9th Cir. 2016).
2. Although the Supreme Court has described our duty regarding pro se pleadings
as "settled law," it has not clearly articulated its purpose. See generally
Rory K. Schneider, Illiberal Construction of Pro Se Pleadings, 159 U. Pa. L.
Rev. 585, 604 (2011). But whatever its purpose, it has deep roots. See, e.g.,
Bretz v. Kelman, 773 F.2d 1062, 1027 n.l (9th Cir. 1985)(en banc)(affording pro
se litigants "the benefit of any doubt").
22.

review- d-epend-s-.—i.n..Targe part , on timing. See United States v.
Salazar-Lopez, 506 F.3d 748, 752-53 (9th Cir. 2007)XnotThgpwe
"continue [] to apply ... Du Bo to dismiss indictments in the face
of timely challenges" (emphasis added)); United States v. Rodriguez,
390 F.3d 949 958 (9th Cir. 2004)(explaining that de novo review
when the defendant had unsuccessfully filed a pre-trial motion to
dismiss the indictment); United States v. Leos-Maldonado, 302 F.3d
1061, 1064 (9th Cir. 2002)(same); United States v. Omer, 395 F.3d
1087, 1088 (9th Cir. 2005)(per curiam)(same). Pre-trial indictment
challenges are reviewed de novo and post-trial challenges are reviewed
for plain error. See, e.g., Salazar-Lopez, 506 F.3d at 753; Rodriguez,
360 F.3d at 958; Leos-Maldonado, 302 F.3d at 1064; Omer, 395 F.3d
at 1088.
[5] Beyond timing, our cases do not explain what constitutes a
"proper challenge" under Du Bo. No doubt, some specificity is
required to facilitate our review. United States v. Santiago,
466 F.3d 801, 803 (9th Cir. 2006). Here, the question of specificity
is informed by the requirement that we construe pro se pleadings
liberally.
Ill Duty to construe pro se pleadings liberally
[6] It is an entrenched principle that pro se filings II f however
inartfully pleaded' *993 are held 'to less stringent standards
than formal pleadingsdrafted by lawyers.' "Hughes v. Rowe 449 U.S.
5, 9, 101 S.Ct. 173, 66 L.Ed.2d 163 (1980)(per curiam)(quoting
Haines v. Kerner, 404 U.S. 519, 520, 92 S.Ct. 594, 30 L.Ed.2d 652
(1972)); Hamilton v.. United States, 67 F.3d 761, 764 (9th Cir. 1995).
We are specifically directed to "construe pro se pleadings liberally."
Hamilton, 67 F.3d at 764. This duty applies equally to pro se motions
and with special force to filings from pro se inmates. See. e.g.,
Thomas v. Ponder, 611 F.3d 1144, 1150 (9th Cir. 2010); Zichko v.
Idaho, 247 F.3d 1015, 1020 (9th Cir. 2001).
In Zichko, we explained what liberal construction demands in a
situation like Qazi's. There, we considered a pro se habeas petition
23.

2

where the defendant made a broad ineffective-assistance-of-counsel
argumeht~~to ~the~drstriot-court and~~then—s-peci-f.ied_on_appeal that
his counsel was ineffective because counsel failed to file an appeal.
247 F.3d at 1020-21. The Government argued we could not consider
Zichko's more focused appellate argument because he did not raise
it before the district court. Id. at 1020. We agree that Zichko did
not "specifically identify" the failure-to-appeal theory in the
district court, but, citing our duty to construe pro se motions
liberally, we held that the general statements in his motion to
the district court sufficed to raise the issue. Id. at 1020-21.
We explained: "The district court could have looked at the entire
petition to see if the ineffective assistance of counsel claim had
any merit; had it done so, the court would have found the allegation
that [counsel] failed to appeal." Id. at 1021.

SHOULD PETITIONER HAVE BEEN APPOINTED COUNSEL BEFORE HE WAS
SANCTIONED BY BOTH THE WISCONSIN COURT OF APPEALS AND THE UNITED
STATES COURT OF APPEALS (7th Cir. Ill.)

?

Petitioner, asked for appointment of counsel, after his Pro SePostconviction Hearing on January 28, 2005. e.g., " Appendix___ ."
And did write the State Public Defender's Office on January 30,
2005. e-g. " Appendix _X_." This is a violation of Petitioner's
6th Amend right. Petitioner was forced to proceed on Direct Appeal
Pro se, and he is indigent. The State Of Wisconsin is using the
Procedural Bar against Petitioner, and he has no other remedy
at law available to seek relief from an illegal sentence.

24.

Petitioner claims, the Circuit Court Judge, should have
.. known that he could not rmpos'e-more—than—one_sentence for the
For support of this argument, as a starting point, he relies
Crime.
on the language found at 85 U.S. 163, 21 L. Ed. 872, 1873 U.S.
LEXIS 1301, 18 Wall. 163, Ex parte Lange (Emphasis in Part);
[*170] In the case of Crenshaw v. The State of Tennessee, fSbl
it was held by the Supreme Court of that State that the common-law
principle went still further, namely, that an indictment, conviction,
and punishment in a case of felony not capital was a bar to a
a prosecution for all other felonies not capital committed before
such conviction, judgment, and execution.
If a civil case, says Drake, J., in State v. Cooper,

the

law abhors a multiplicity of suits, it is yet more watchful in
criminal cases that the crown shall not oppress the subject, or _
the [***14] government the citizen, by prosecutions.
These salutary principles of common law have, to some extent, been
mebodied in the constitutions of the several States and of the
United States. HN3± By Article VII of the amendments to the latter
instrument it is declared that no fact once-bried by a jury shall
shall be otherwise re-examined in any court of the United States
than according to the rules of the common law; and by Article V,
that no person shall for the same offense be twice put in jeopardy
of life or limb ... nor be deprived of life, liberty, or property
without due process of law.
It is not necessary in this case to insist that other cases besides
involving life or limb are positively covered by the language of
this amendment; or that when a party has had a fair trial before
a competent court and jury, and has been convicted, that any excess
of punishment deprives him of liberty or property without due course
of law. On the other hand it would seem to be equally difficult
to maintain, after what we have said of the inflexiable rules of
the common law against a person being twice punished for the same
25.

.offense, that such second [***15] punishment as it pronounced in
this case is not a violation ot~Fhat~prx)vi-s-ion—of—the_Constitution.
It is very clearly the spirit of the instrument to prevent a second
punishment under judicial proceedings for the same crime, so far
as the common law gave that protection.
In the case of The Commonwealth v. Olds, I'l0± I one of the [*171]
best common law judges that ever sat on the bench of the Court
of Appeals of Kentucky [11±] remarked, "that every person acqainted
with the history of the governments must know that state trials
have been employed as a formidable engine in the hands of a dominant
administration .... To prevent this mischief the ancient common
law, as well as Magna Charta itself, provided that one acquittal
or conviction should satisfy the law; or, in other words, that the
accused should always have the right secured to him of availing
himself of the pleas of autrefois acquit and autrefois convict.
To perpetuate this wise rule, so favorable and necessary to the
liberty of the citzen in a government like ours, so frequently
subject to changes in popular feeling and sentiment, was the design
into our Constitution the clause in question."
[***16] In the case of Cooper v. The State, I 1*2fI in the Supreme
Court of New Jersey, the prisoner had been indicted, tried, and
convicted for arson. While still in custody under this proceeding
he was arraigned on an indictment for the murder of two persons
who were in the house when it was burned. To this he pleaded the
former conviction in bar, and the Supreme Court held it a good plea.
It is to be observed that the punishment for arson could not
technically extend either to life or limb; but the Supreme Court
founded its argument on the provision of the constitution of New
Jersey, which embodies the precise language of the Federal Constitution.
After referring to the common law maxim the court says: "The
constitution of New Jersey declares this important principle
in this form: 'Nor shall any person be subject for the same
offense to be put twice in jeopardy of life or limb.' Our courts
26.

of justice would have recognized and acted upon it as one of the
most valuable principles f the-common_la w_w,ithout any constitutional
provision. But the farmers of our Constitution have thought it
worthy of especial notice. And all who are conversant with courts
of justice must be satisfied that [***17] this great principle [*172]
forms one of the strong bulwarks of liberty .... Upon this principle
are founded the pleas of autrefois acquit and autrefois convict."
Defendant states, "This proves he should not have been convicted
of the other 5-Counts because the other Counts carry less time in
Prison."
Petitioner claims, on August 23, 2004, that was to be sentencing,
. but was converted into a Status Conference, in which he appeared
Pro se. Id. at (8-23^04,Ti.Tr.Pp. 3 & 4), "The Court: What is
that ?
The Defendant: Life plus 165, roughly.
The Court: I
think that's not quite what it says, but I have to find the information.
Here we go. Well, the original Information alleges first-degree
intentional homicide. This is only an attempt, so the penalty would
not be life. It would be something less than that.
Ms. Anderson (Prosecutor): Your Honor, in an Amended Information
we charged attempted first-degree
intentional homicide with a repeater,
potential penalty ?

The Court: What's the

I don't have the penalties memorized anymore.

Ms. Anderson: Without the repeater, it's 60 years and it
enhances for not more than six years with the prior conviction . _
being for a felony.
The Court: You are looking, on Count 1,
Mr. Poirier, at about 66 years potential incarceration, and on the
possession of a firearm ten more years.
Ms. Anderson: With an enhancement of four years for the felony
prior.
(The Prosecutor is taking about the Rusk County OMVWOC
that is not a crime of violence.)
The Court: That's 14 years. On the vehicle theft you are
looking at six years with a two year penalty— excuse me, six-years
penalty enhancement, 12 years.

And for the burglary you are looking

at 12 and a half years plus six years.
27.

So you're looking -- also

-t-he—ag-gxay.ated battery, which would be 15 years plus the penalty
enhancement. So you are looking at a5durt~~T0Q—vaar-s—or_more which
would, in effect, if I were to give you the maximum penalty,
would be a life sentence. Do you understand that ?
The Court: You've been through various
The Defendant: Yes.
criminal trial on occasion and sentencing hearings in the past.
Petitioner states, " His defense counsel was allowed to withdraw
from the case without being present, and this is a total violation
of his U.S. Const. Amend. XIV. This is another Federal law.violation."
Petitioner claims, even at Pro se - Sentencing on October 28,
2004, the Judge even said, "The Court: Frankly, if I recall, there
were at least two trials before me in which you were acquitted,
and I don't know all the facts in your life that led to those
acquittals, but the evidence in both cases were, actually, quite
strong in my opinion. In this case, however, your testimony did not
save you. You have not shown any remorse or any repentance for
the crime you have committed. You continue to claim you're innocent,
that you were a victim, not the perpetrator, but it's my belief
that your testimony at trial borders on rediculous." e.g.,
" Appendix ___
Petitioner states, " Because the Judge sat on the last 2-jury
trials, he enhanced the penalty even further because the Habitual
Offender Statute § 939.62 Wis. Stats, the Judge made sure Petitioner
received the Maximum sentence, plus 5-other sentences that are
having a grave collateral effect upon him."
Petitioner has even challenged the Habitual Offender Statute
§ 939.62(l)(c) in his §781.01 Extraordinary Remedy that was denied
on May 21, 2021, and Motion For Reconsideration. e-g. , " Appendix F ."
Because the prison has been on lock-down since March 18, 2020, the
COVID-19 pandemic it has been impossible to get any law research
done. But a friend of mine gave myself a Prison Legal News, and
the law has changed on what crimes are "violent" felonies. I
would call your attention to the U.S. Court Of Appeals For The
28.

-Eighth Circuit, held that after defendant's ACCA enhancement
was struck his sentence must he va'ca’t-etl—beea-u-se—th.e_court lacked
jurisdiction to impose more supervision than allowed by statute.
Travis Ryan Raymond was convicted on possession with intent
to distribute methamphetamine under U.S.C. § 841(a)(1) and (b)(1)(c)
and being a felon in possession of a firearm under 18 U.S.C.
§ 922(g)(1) in 2014. The district court also determined that five
of his Minnesota state priors constituted violent felonies, which
triggered a 15-year mandatory minimum under § 924(e). The court
sentenced him to two prison terms, one for each count, to be served
concurrently and imposed a five-year term of supervision (also the
minimum under the ACCA).
Raymond's sentence was upheld on appeal, four months before
the Supreme Court issued a decision in Johnson v. United States,
135 S.Ct. 2551 (2015). Because Johnson struck down the ACCA provision
that classified three of his priors as violent felonies, Raymond
filed a timely motion under 28 U.S.C. § 2255. The district court
agreed that the ACCA statutory minimum no longer applied but denied
relief because "his 15-year sentence still fell within the sentencing
range recommended .... on the drug count."
Petitioner claims, he has also filed in the Federal District
Court also, and this was before the Johnson decision. And, he was
denied." Because he was Sanctioned, he cannot get any relief,
and PETITIONER PRAYS THIS COURT WILL GRANT HIM RELIEF.
With the assistance of the Public Defenders Office, Raymond
filed a motion under Rule 60(b)(6) of the Federal Rules of Civil
Procedure, seeking reconsideration of his §22555petition. This was
denied on the same grounds as his §2255 motion. Raymond was granted
a certificate of appealability from the district court, and the
Eighth Circuit reversed.
" An error of law may be remedied under § 2255 only when it
constitutes a fundamental defect which inherently results in a

29.

—

United States v. Addonizio, 442 U.S. 178
-mi-S-C-Prri age of justice . "
(1979). When denying his petition, tYe~dl~S’t-r-i-G-t—cour t re 1 ied on
Sun Bear v. United States, 644 F.3d 700 (8th Cir. 2011), which stated,
"if the same sentencing court could have imposed, then a defendant
is not entitled to habeas relief."
The Court determined that Sun Bear was distinuishable because
Cravens v. United States, 894 F.3d 891 (8th Cir. 2018), the ACCA's
residual clause caused sentences to be issued which were "imposed
in violation of the Constitution."
Using the proper standard, i.e., Sun Bear instead of Cravens,
is a legal error that amounts to an abuse of discretion under
City of Dulth v. Fond du Lac Band of Superior Chippewa, 702 F.3d 1147
(8th Cir. 2013).
The only catch Raymond was that, in light of Quarles v.
United States, 139 S. Ct. 1872 (2019), his prior for third-degree
burglary may again qualify as an ACCA predicate, so the Court remanded
Raymond's ACCA Challenge in light of Quarles.
Accordingly, the Court vacated the denial of Raymond's 60(b)(6)
motion because the appropriate legal standard for assessing his
ACCA claim. See Raymond v. United States, 933 F.3d 988 (8th Cir. 2019).
Furthermore:
The Seventh Circuit reverses convictions under 18 U.S.C. § 924(c);
Holdings Under Offenses DO NOT QUALIFY as "CRIMES OF VIOLENCE."
The U.S. Court Of Appeals For The Seventh Circuit reversed
convictions of prisoners who have been found guilty of using and
discharging firearms during a crime of violence in violation of
18 U.S.C. § 924(c). In doing so, the Court held that the underlying
offense of Kidnapping, making a ransom demand, and being a felon
in possession of a firearm, violations of 18 U.S.C. §§ 1201, 875(a),
and 922(g)(1), respectively, do not qualify categorically as crimes
of violence under § 924(c).
Lindani Mzembe, Ivan Brazer, and Derek Fields attacked a man
as he approached his car, which was parked in front of his house.
They beat him with their pistols and demanded money. Accidentally,

30.

shooting him in the arm in the process. They used duck tape to bind,
[—him—i-n-to —a_car ; drove him to
blindfold, and gaghim; boa
Beazier's house. They continued to pistol-whip him and demand
money.
All three men were indicted for kidnapping, demanding a ransom,
being felony in possession of a firearm, and possession of a
firearm in furtherance of a crime of violence.
Mzembe and Fields were convicted of all three charges while
Brazier was convicted only of the kidnapping and ransom charges.
Brazier, Mzembe, and Fields received total sentences of 444, 528,
and 656 months, respectively. The later two included mandatory
120-month consecutive sentence for the possessing a firearm in
furtherance of a crime of violence.
The men did not appeal the underlying conviction for kidnapping,
demanding a ransom, or being a felon in possession of a firearm but
raised sentencing issues and challenges to the men's § 924(c)
convictions.
The Seventh Circuit noted that, under § 924(c), an underlying
offense qualified as a "crime of violence" if it "has an element
of the use, attempted use, or threatening use of physical force
against the person or property of another," § 924(c)(3)(A), or "by
its nature, involves a substantial risk that physical force against
the person or property of another may be used in the course of
committing the offense." § 924(c)(3)(B).
However, in United States v. Davis, 139 S. Ct. 2319 (2019),
the Supreme Court held that the residual clause's definition of
"crime of violence" in § 924(c)(3)(B) is unconstitutional vage.
Therefore, the Supreme Court held that the § 924(c) convictions
could only be upheld if the underlying offense required violence
against a person or property as an element of the offense. In other
words, if there was any method by which the crime could be committed
without using violence, the convictions had to be reversed, regardless
of the actual facts of the underlying crimes.
The Seventh Circuit had previously held that kidnapping and

31.

V

demanding a ransom do not categorically qualify as crimes of violence
-und~er--5 —9~2~4:fc-9-;—Uo4-te.d .States v. Jenkins, 849 F.3d 390 (7th Cir.
2017). Because the conviction could have~had~~an—et-^-’ec^tzro-nrrth-^'
_
sentences for the other charges, the Court upheld Brazier's sentence
and reversed all of the other sentences of Mzembe and Fields,
and remanding their cases for resentencing. See United States v.
Brazier.
Petitioner claims, because the lower courts will not address
the issues he has raised in his writs, this has resulted in a
fundamental miscarriage of Justice. The Prosecutor will not even
provide him with a copy of the Judgments Of Convictions, e.g.,
" Appendix Qr ." And told Petitioner that the Prison could provide
him with one, and the prison could not.

REASON FOR GRANTING THE WRIT
The lower courts have ruled "contrary" to well established
Federal law as determined by the United States Supreme Court.
The U.S. Supreme Court has not ruled on what the predicated offenses
are of Attempted First Degree Intentional Homicide are, and this
will have a great impact on Wisconsin, and clarify the law on how
many charges can arise out of the same overt act. Plus, how many
times the Repeater Statute can apply to the same sentence.
PETITIONER PRAYS THIS COURT WILL GRANT RELIEF BECAUSE NO OTHER
COURT WILL HEAR HIS CLAIMS.

CONCLUSION
Petitioner has been enacted with a fundamental miscarriage of
justice because the law is not settled yet, and no other court
*

i
t

i

*4
it

32.

I-i

